                  Audit of Electronic Data Processing of
                   Accounts Payable Scanning System

                                 August 2004

                     Reference Number: 2004-1C-139




  This report has cleared the Treasury Inspector General for Tax Administration
disclosure review process and information determined to be restricted from public
                 release has been redacted from this document.
                                     DEPARTMENT OF THE TREASURY
                                        WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                           August 25, 2004


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE




       FROM:                  Daniel R. Devlin
                              Assistant Inspector General for Audit (Headquarters Operations
                              and Exempt Organizations Programs)

       SUBJECT:               Audit of Electronic Data Processing Accounts Payable Scanning
                              System (Audit #20041C0239)


       The Defense Contract Audit Agency (DCAA) examined the contractor’s accounts
       payable scanning system and related Electronic Data Processing (EDP) controls as of
       September 27, 2000. The purpose of the examination was to assure that the
       contractor’s system is adequate to provide for the accuracy and reliability of the
       information being generated by the EDP scanning system.
       The DCAA opined that the contractor’s accounts payable scanning system and related
       EDP internal controls are inadequate in part. The DCAA examination disclosed the
       following deficiencies: lack of established formal written policy and procedure on the
       retention period of scanned images, and lack of a contingency plan. The DCAA
       indicated these deficiencies, if not corrected, decrease the integrity and the Government
       reliability on contract cost data processed by the system.
       The contractor agrees with the findings and submitted a formal written procedure to the
       DCAA that addresses the retention period of scanned images. Additionally, the
       contractor submitted a copy of their Disaster Recovery Plan for the Document Imaging
       Department to the DCAA. The DCAA will perform a follow-up examination to determine
       whether the written procedure and the Disaster Recovery Plan are fully implemented
       and working effectively.
       The DCAA examined only the accounts payable scanning system and related EDP
       internal controls. Accordingly, the DCAA expresses no opinion on the contractor’s
       system of internal controls taken as a whole.
                                            2




Although this DCAA report is dated November 2001, we did not receive a copy of the
report until July 2004. Neither the Internal Revenue Service (IRS) nor the Treasury
Inspector General for Tax Administration (TIGTA) are shown on the DCAA report
distribution list. We are transmitting the report to you to assist in the management of the
contract and to enable the IRS to track any financial accomplishments derived from
negotiations with the contractor based on results from the DCAA report.
The information in this report should not be used for purposes other than those intended
without prior consultation with the TIGTA regarding their applicability.
If you have any questions, please contact me at (202) 622-8500 or John R. Wright,
Director, at (202) 927-7077.


Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                  The TIGTA seal was removed due to its size.
